                                        TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



January 23, 2013

Andrew D. Kosnaski, WT 9C-K

FINAL REPORT – EVALUATION 2012-14577 – REVIEW OF TVA’S OUTAGE
SCHEDULING RISK



As part of a series of reviews to evaluate Tennessee Valley Authority’s (TVA) actions to
address key risks, we evaluated TVA’s outage scheduling risk. Outage Scheduling was
identified as a top five strategic business unit (SBU) risk in the Internal Process and
Procedures Risk category in fiscal year (FY) 2011. The results of our review are shown in
the table below.

                                        Risk: Outage Scheduling Risk
    Risk Information                    Mitigation                 Our Assessment
    Definition: Failure           Following Standard                The mitigation strategy for addressing
    in coordination of             Programs and                      TVA’s outage scheduling risk is designed
    the outage                     Processes (SPP) 33.4,             appropriately and has reduced the risk.
    schedule for TVA.              Outage and Derate1                However, opportunities exist to improve
                                   Concurrence Process               the outage scheduling process. We found
    Probability:                   (Outage Concurrence               (1) the control overseeing the Outage
    Remote.*                       Process), will ensure             Concurrence Process is manual and time
                                   that a formal outage              consuming, (2) the control in place over
    Consequences:                  change request process            quality checks is not being completed, and
    Minor.                         is followed by asset              (3) the Outage Concurrence Process does
                                   organizations requesting          not align with SPP-30.004, TVA Chief
    Risk Owner:                    outage changes and that           Operating Officer Approved Method to
    Manager, Resource              the concurrence with              Optimize TVA Asset Availability (Asset
    Planning.                      outage schedules is               Availability Optimization Process) in regard
                                   given by all impacted             to the use of Asset Availability in entering
                                   organizations. This               outages.
                                   mitigation is currently
                                   ongoing.
    *The rating in the chart is current as of Q4 2012, but as discussed later in the report, the rating was at “even
    odds” for probability and “severe” for consequences in Q2 2010. The reduction in the risk rating occurred
    after the Outage Concurrence Process was put in place.




1
      A derate condition exists and starts when a unit is not capable of reaching 100 percent of its seasonal
      capacity.

          WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
          distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                  is not to be further distributed without prior approval of the Inspector General or his designee.

                                        TVA RESTRICTED INFORMATION
Andrew D. Kosnaski
Page 2
January 23, 2013



    Recommendations
    We recommend the Vice President, System Planning, (1) work in conjunction with the Asset
    Availability owners to determine if a control can be added to Asset Availability to prevent outages
    from being entered without first completing the Outage Concurrence Process, (2) take steps to
    make sure that quality checks are performed as prescribed in the Outage Concurrence Process,
    and (3) work in conjunction with the owner for the Asset Availability Optimization Process to
    address conflict between the Outage Concurrence Process and the Asset Availability
    Optimization Process to align the process of entering outages into Asset Availability.

TVA management agreed with our recommendations and plans to take actions. Prior to
submitting their formal response, TVA management provided informal comments and
additional information. We revised sections of the report based on the informal comments
and provided the revised version of the report to TVA management to use in preparing
their formal response. See the Appendix for TVA’s complete response.

BACKGROUND

Outage Scheduling is a risk identified by TVA’s Enterprise Risk Management (ERM)
Program. TVA defines ERM as a systematic process to facilitate business unit
identification of risk, consistency in their analysis and communication throughout TVA,
such that the company can determine whether or not the risks should be avoided,
accepted, or mitigated with a risk management plan. TVA also states ERM is an ongoing
and evolving process to protect the value of the enterprise and realize opportunities for
stakeholders by promoting the efficient and effective management of risk.

Outage Scheduling was identified as a top five SBU risk in the Internal Process and
Procedures Risk category in FY 2011. The risk refers to failure in coordination of the
outage schedule for TVA. Uncoordinated generator outages could cause threats to
transmission reliability, negative impacts to operation flexibility, and missed opportunities
to minimize financial impacts of outages. Outage schedules are coordinated for the
business planning time period, which is typically 5 years. Generator and transmission
outages impacting net power delivery to the grid should be scheduled to combine the
transmission and generator work into one outage where possible, meeting North American
Electric Reliability Corporation compliance, operational flexibility, labor constraints, and
total financial impacts through minimizing both replacement power costs and impacts to
SBU budgets. Currently, TVA’s risk map2 lists outage scheduling risk’s probability of
occurrence as “remote,” and the consequences of such risk were considered “minor.”

In order to mitigate this risk, TVA follows the Outage Concurrence Process that was
issued in September 2010. TVA’s current mitigation strategy is to follow the Outage
Concurrence Process. According to the risk map, following the Outage Concurrence
Process will ensure that a formal outage change request process is followed by asset
organizations requesting outage changes and that the concurrence with outage schedules
is given by all impacted organizations. The main objectives of the Outage Concurrence
Process are to accurately capture outage and derate schedules in Transmission


2
     A risk map is a two-dimensional graphical tool used to illustrate point estimates of risk. Each mention of
     the risk map throughout this report refers to the draft version.
                                     TVA RESTRICTED INFORMATION
Andrew D. Kosnaski
Page 3
January 23, 2013



Reliability and Operations’ (TRO) Asset Availability3 interface, resource plans, facilitate
outage and derate schedule optimization, and ensure system reliability. The Outage
Concurrence Process specifies the required analysis, concurrence process, and approval
timeline to ensure accurate communication and efficient coordination. The procedure
includes the scheduling of generating assets including nuclear, coal, gas,4 and the
Raccoon Mountain Pumped-Storage Plant. Outage requests include planned outages,
maintenance outages, derates, fuel blend changes, and other business cases reducing
the capacity or net power to the grid positions. The planning horizon of the Outage
Concurrence Process is between 11 days and 5 years prior to the outage occurring. This
aligns with TVA’s business planning process. Outages arising within a 10-day window are
planned through TRO and are not required to complete the Outage Concurrence Process.

OBJECTIVE, SCOPE, AND METHODOLOGY

As part of a series of reviews to evaluate TVA’s actions to address key risks, we evaluated
TVA’s outage scheduling risk. The objective of our review was to evaluate TVA's outage
scheduling risk to identify opportunities to improve mitigation strategies and assess
whether mitigation strategies are designed appropriately to address the identified risk.
The scope of this review includes the outage scheduling risk and the mitigation plans for
this risk. We considered ongoing activities and efforts to mitigate the outage scheduling
risk from 2010 through the end of FY 2012.

To achieve our objective, we:

    Interviewed applicable TVA personnel including the Senior Specialist, Resource
     Planning, risk owners,5 and participants in the Outage Concurrence Process to
     determine what steps are being taken to mitigate TVA’s outage scheduling risk, the
     results of the mitigations, and any concerns they have with the process.
    Identified and reviewed applicable policies related to outage scheduling risk to
     determine the process for coordinating outages.
    Reviewed historical outage scheduling risk maps to determine if the risk rating has
     changed.
    Reviewed a judgmentally selected sample of 12 outages to determine if the
     appropriate concurrence and approvals are being obtained as required by the Outage
     Concurrence Process.

This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation.




3
    Asset Availability is a Web-based application, owned by TRO, and is the primary tool for scheduling
    outages, maintenance, or tests that shall have an effect on the generation mission of each generating unit
    in TVA.
4
    Combined cycle gas plants were included in the process since its initial issue date, but combustion turbine
    gas plants were only added to the process during calendar year 2012.
5
    The risk owner for TVA’s outage scheduling risk is the Manager, Resource Planning.
                                    TVA RESTRICTED INFORMATION
Andrew D. Kosnaski
Page 4
January 23, 2013



FINDINGS

We found the mitigation strategy for addressing TVA’s outage scheduling risk is designed
appropriately and has reduced the risk. However, opportunities exist to improve the
outage scheduling process. During our review, we found (1) the control overseeing the
Outage Concurrence Process is manual and time consuming, (2) the control in place over
quality checks is not being completed, and (3) the Outage Concurrence Process does not
align with the Asset Availability Optimization Process6 in regard to the use of Asset
Availability in entering outages.

Mitigation Strategy Is Designed Appropriately and Has Reduced the Risk Rating
The mitigation strategy is designed appropriately and is addressing the risk, which has
reduced the risk rating. Since the issuance of the Outage Concurrence Process, TVA’s
outage scheduling risk has seen a decrease from “high” to “low” as seen in the chart
below. The first reduction in the risk rating occurred around the same time as the
issuance of the Outage Concurrence Process. The second reduction in the risk rating
occurred after the process had been in place for about 2 years. According to System
Planning, since implementing the Outage Concurrence Process, System Planning has
reduced the consequences rating of this risk as awareness of the risk increased through
communication and collaboration with other TVA business functions. Outage coordination
in the System Planning window seeks to ensure reliability while minimizing economic
impact of scheduled outages. TRO manages outage schedules within a 10-day window;
therefore, risks of the Outage Concurrence Process from a reliability perspective are
minimal.

                       Table 1: TVA’s Outage Scheduling Risk Rating
          Date               Risk Rating         Probability of Occurrence           Consequences
     Quarter 2 2010              High                      Even Odds                      Severe
     Quarter 4 2010             Medium                     Even Odds                     Moderate
     Quarter 2 2011             Medium                     Even Odds                       Minor
     Quarter 4 2012              Low                        Remote                        Minor

The most recent risk map lists the probability of occurrence as “remote” because lack of
outage coordination is deemed to have a less than 10-percent likelihood of occurring,
given the TVA SPP governance and collaboration with the affected operating groups.

To determine if the concurrence process is being followed, we judgmentally selected a
sample of 12 planned and maintenance outages that occurred between July 1, 2011, and
June 30, 2012, that were scheduled at least 10 days in advance. We found one of the
12 outages, or 8 percent, did not properly follow the Outage Concurrence Process. The
Senior Specialist, Resource Planning, who is responsible for coordinating the concurrence
and approval process for outage and derate requests, and other TVA personnel were
aware before the outage occurred that it was not properly approved but made the decision
to remind the involved personnel of expectations and not run the outage through the
6
    SPP-30.004 is the TVA Chief Operating Officer Approved Method to Optimize TVA Asset Availability. The
    procedure provides consistent methodology for continuously communicating and classifying outages,
    derates, and other activities to ensure Asset Availability optimization for TVA-owned and -contracted
    assets.
                                  TVA RESTRICTED INFORMATION
Andrew D. Kosnaski
Page 5
January 23, 2013



outage concurrence process at that time. While this was not scheduled through the
concurrence process, it was scheduled through TRO and according to TVA, it did not have
a material impact. The 8 percent of outages in our sample that did not properly follow the
concurrence process falls within the estimated percentage of occurrence of under
10 percent; therefore, the new rating of “low” is appropriate.

Opportunities for Improvement Exist in the Outage Scheduling Process
TVA’s mitigation strategy for outage scheduling has reduced the risk; however,
opportunities exist to improve the outage scheduling process. The control overseeing the
Outage Concurrence Process is manual and time consuming. Also, the control over
quality checks is not being performed. Additionally, the Outage Concurrence Process
does not align with the Asset Availability Optimization Process in regard to the use of
Asset Availability in entering outages.

Control Over Outage Concurrence Process Is Manual and Time Consuming
We found the control overseeing the Outage Concurrence Process is manual and time
consuming. Currently, Asset Availability allows outages to be entered into the system
without proper approval. In order to make sure outages were not put into Asset
Availability without first following the outage concurrence process, the Senior Specialist,
Resource Planning, checks Asset Availability daily. TRO and the Asset Owners Business
representative also check Asset Availability for outages that were not sent through the
Outage Concurrence Process. The Asset Availability system does not send users an alert
when a new outage is placed in it, so it is a daily responsibility. The risk owner stated it is
an ongoing process to ensure the SPP is being strictly followed, and outages are not
being scheduled without first having gone through the concurrence process. Having a
control that is manual and a daily responsibility to check Asset Availability for outages
entered without proper approval is time consuming and takes away time that could be
used to focus on optimizing the outage schedule.

System Planning stated the process could be improved by having the Asset Availability
and Consolidated Outage Portal software communicate with each other. This would link
generator outages with transmission outages to leverage the two by reducing redundant
outages as much as possible. This would greatly reduce or eliminate the manual work of
linking generator and transmission outages for their impacts on each other. These tools
would provide additional risk mitigation beyond the Outage Concurrence Process.

Control in Place Over Quality Checks Is Not Being Completed
We also found the control in place over quality checks is not being completed. The
Outage Concurrence Process states the Near Term Resource Planning Manager7 is to
provide oversight and direction to the Near Term Resource Planning Specialist8 and
ensure that all Near Term Resource Planning outputs are timely, accurate within
acceptable uncertainties, and checks are in place to maintain quality results. The

7
    Since the reorganization, there is no longer a distinction between near term and long term from an
    organizational standpoint. The Near Term Resource Planning Manager referred to in the Outage
    Concurrence Process is being covered by the Resource Planning Manager. The organization titles will be
    revised in the process during the next update.
8
    The Senior Specialist, Resource Planning, fills the role of the Near Term Resource Planning Specialist as
    referred to in the Outage Concurrence Process.
                                   TVA RESTRICTED INFORMATION
Andrew D. Kosnaski
Page 6
January 23, 2013



Resource Planning Manager stated that a review of the analyses is not regularly
performed. Without a double check on the analyses performed, there is a risk the outage
could be scheduled at a time that could affect system reliability.

The Outage Concurrence and Asset Availability Optimization Processes Are Misaligned
We found two processes that are not aligned on the instructions for the use of entering
outages into Asset Availability. The Outage Concurrence Process, the procedure relating
to this review, states approved outages are supposed to be entered into Asset Availability,
and the Senior Specialist, Resource Planning, confirmed that an outage must not be
indicated in Asset Availability until approval. The Asset Availability Optimization Process
states that outages are supposed to be entered into Asset Availability as soon as the work
required for the outage is known. TVA personnel related to both processes believe their
respective process takes care of the problem. The risk owner was aware of the
disagreement and stated the issue could possibly be resolved in the new version of Asset
Availability.

Additional Information
When testing the sample of outages, we found Asset Availability does not have the ability
to track changes to entries. In looking at one of the outages, the concurrence and
approval documentation existed but were recorded for the incorrect unit. While the outage
itself followed the concurrence process and had the proper concurrence and approvals,
the entries into Asset Availability did not match up exactly; therefore, we were unable to
track the error because Asset Availability does not leave an audit trail of changes to
entries.

RECOMMENDATIONS

We recommend the Vice President, System Planning:

   Work in conjunction with the Asset Availability owners to determine if a control can be
    added to Asset Availability to prevent outages from being entered without first
    completing the outage concurrence process.
   Take steps to make sure that quality checks are performed as prescribed in the
    Outage Concurrence Process.
   Work in conjunction with the owner for the Asset Availability Optimization Process to
    address conflict between the Outage Concurrence Process and the Asset Availability
    Optimization Process to align the process of entering outages into Asset Availability.

TVA Management’s Comments – TVA management agreed with our recommendations
and plans to take actions. Prior to submitting their formal response, TVA management
provided informal comments and additional information. We revised sections of the report
based on the informal comments and provided the revised version of the report to TVA
management to use in preparing their formal response. In response to our
recommendations, the Vice President, System Planning, has agreed to (1) work in
conjunction with TRO to modify Asset Availability to include an audit trail capability and
automated notification for entries and record modification; (2) implement routine outage


                             TVA RESTRICTED INFORMATION
And
  drew D. Kossnaski
Pag
  ge 7
Jan
  nuary 23, 20
             013



sch
  heduling upd
             date meetinggs for the Se
                                     enior Specia list, Resourcce Planning,, to brief the
Maanager, Resoource Planniing, on outag
                                      ge activity; a
                                                   and (3) workk with TRO to
                                                                           o correct the e
mis
  salignment between
              b       the Outage Con  ncurrence P rocess and the Asset Avvailability
Optimization Process. Seee the Appendix for TVA’ss complete rresponse.

Auditor’s Response – The Office of the Inspectorr General co           planned actions.
                                                           oncurs with p

                               -       -       -      -       -

Ple
  ease notify us within one
                          e year from the date of thhis memoran   ndum when final action is
com
  mplete. Infoormation conntained in this report mayy be subjectt to public dissclosure. Pllease
adv           ny sensitive information in this reporrt that you re
  vise us of an                                                  ecommend b  be withheld.

If you
   y have any  y questions or
                            o wish to discuss our o bservations,, please con
                                                                           ntact Janell B
                                                                                        B.
Cunio, Senior Auditor,
               A            423) 785-4811 or Greg S
                        at (4                       Stinson, Dire
                                                                ector, Evalua
                                                                            ations, at
(8665) 633-73677. We appre  eciate the co
                                        ourtesy and cooperation received froom your stafff
durring the evaluation.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

JC:FAJ
Atta
   achment
cc (Attachmentt):
     Peyton T. Hairston, Jrr., WT 7B-K
     Joseph J. Hoagland, WTW 7C-K
     William D. Johnson, WT
                          W 7B-K
     Richard W.
              W Moore, ET T 4C-K
     Emily J. Reynolds,
              R         OCCP 1L-NST
     John G. Trawick, WT 9C-K
                            9
     Robert B. Wells, WT 9B-K
                          9
     Andrea L. Williams, WT
                         W 9B-K
     OIG File No.
              N 2012-145   577




                              TVA REST
                                     TRICTED INF
                                               FORMATION
                             APPENDIX
                             Page 1 of 2




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 2




TVA RESTRICTED INFORMATION
